USAID
OFFICE OF INSPECTOR GENERAL

Audit of USAID Mission for the Caucasus’ Monitoring
of American International Health Alliance’s
Performance in Georgia

Audit Report No. B-123-03-001-P

December 11, 2002




     U.S. Agency for International Development
                Budapest, Hungary
December 11, 2002

MEMORANDUM
FOR:            USAID Mission for the Caucasus, Mission
                Director, Michael Farbman

FROM:           Director of Audit Operations, RIG/Budapest,
                Nathan S. Lokos

SUBJECT:        Audit of USAID Mission for the Caucasus’
                Monitoring of American International Health
                Alliance’s Performance in Georgia
                (Report No. B-123-03-001-P)

This is our final report on the subject audit. In preparing the report,
we considered your comments on the draft report and included
them in their entirety in Appendix II.

This audit was designed to test USAID Mission for the Caucasus’
(USAID/Caucasus or Mission) monitoring of American
International Health Alliance’s (AIHA) performance in Georgia.
We found that USAID/Caucasus was adequately monitoring
AIHA’s performance; however, we also identified monitoring and
reporting aspects that could be strengthened. Therefore, this report
contains three recommendations. Final action has been taken on all
three of these recommendations upon issuance of this report.

I want to express my sincere appreciation for the cooperation and
courtesy extended to my staff during this audit.




                                                                 Page 1
Table of   Summary of Results                                      3
Contents
           Background                                              3

           Audit Objective                                         5

           Audit Findings                                          5

                  Did the USAID Mission for the Caucasus
                  monitor American International Health
                  Alliance’s performance to ensure that
                  intended results were achieved in
                  Georgia?

                     USAID/Caucasus Needs to Obtain and Approve
                     AIHA’s Monitoring and Evaluation Plan      7

                     USAID/Caucasus Needs to Assess and Plan for
                     Future Performance Monitoring Site Visits     9

                     USAID/Caucasus Needs to Obtain Financial
                     Status Reports from AIHA                      12

           Management Comments and Our Evaluation                  13

           Appendix I - Scope and Methodology                      14

           Appendix II - Management Comments                       16




                                                                   Page 2
Summary of   This audit was designed to assess the U.S. Agency for International
Results      Development Mission for the Caucasus’ (USAID/Caucasus or
             Mission) monitoring of American International Health Alliance’s
             (AIHA) performance in Georgia.

             We found that USAID/Caucasus was adequately monitoring AIHA’s
             performance. Moreover, we determined that sites and activities—
             including primary health care clinics, the blood bank, infectious
             control center, health management education center and women’s
             wellness center opened through AIHA and USAID/Caucasus
             cooperation— were in existence, operating as reported, and staffed
             by enthusiastic, well-trained Georgian health professionals (see
             pages 5-6). However, we did determine that USAID/Caucasus
             should strengthen its monitoring by:

                  •   obtaining and approving AIHA’s monitoring and evaluation
                      plan (see pages 7-9);
                  •   assessing and planning for future performance monitoring
                      site visits (see pages 9-12); and
                  •   modifying the cooperative agreement to properly notify
                      AIHA to supply financial status reports (see pages 12-13).

             USAID/Caucasus officials agreed with the appropriateness of the
             findings and recommendations of this report and have taken action
             to address them. Consequently, all three recommendations are
             considered to have final action upon issuance of this report.




Background   USAID conducts assistance programs around the world. In order
             to implement these programs, USAID relies on the services of
             large institutional partners (grantees, awardees or contractors).
             Oftentimes, the same partner can be found to be implementing
             simultaneous programs in several countries within the same
             USAID geographical region. One such partner is the American
             International Health Alliance (AIHA). Since 1992, AIHA and
             USAID have collaborated in a public-private partnership between
             American health care providers, educators and leaders to improve
             health care services in 22 nations of Central and Eastern Europe
             (CEE) and the Newly Independent States of the former Soviet
             Union (NIS).

             On September 30, 1998, USAID awarded an unfunded basic
             agreement to AIHA. USAID subsequently funded six sub-

                                                                           Page 3
                      agreements awarded to AIHA under that basic agreement. One of
                      these sub-agreements (Cooperative Agreement No. EE-A-00-98-
                      00017-00) awarded $19.6 million (Total Estimated Cost) to AIHA
                      to implement the U.S./NIS Health Partnership Program in the
                      Caucasus (Armenia, Azerbaijan, and Georgia). Of this amount,
                      USAID obligated $6.3 million to support AIHA’s activities in
                      Georgia.

                      AIHA establishes partnerships that are voluntary and community-
                      based, in which the U.S. community’s health-related institutions are
                      paired with similar institutions in a community in the NIS or CEE to
                      further USAID strategic objectives. AIHA’s NIS Health Partnership
                      Program in Georgia is designed to support the USAID/Caucasus’
                      effort to foster more effective and efficient delivery of health services
                      in Georgia. As of December 2001, AIHA had established five
                      partnerships in Georgia implementing activities at 12 sites in seven
                      communities—Batumi, Dusheti, Kazbegi, Kutaisi, Mtskheta, Tbilisi,
                      and Telavi. These partnership activities are in the following areas:

                          •   health management education,
                          •   infection control and health communication,
                          •   healthy communities and women’s health
                          •   blood bank services, and
                          •   community-based primary health care.



A map of cities with American International Health Alliance NIS Partnership activities
visited by OIG Audit Team in Georgia: Tbilisi, the capital, Kutaisi, Dusheti and Mtskheta




                                                                                       Page 4
Audit Objective   As part of its Fiscal Year 2002 Audit Plan, the USAID Office of
                  Inspector General (OIG) included a series of audits examining
                  USAID’s monitoring of a large institutional partner implementing
                  USAID-funded activities in several countries within the Europe
                  and Eurasia Region. The American International Health Alliance
                  (AIHA) met these criteria. Accordingly, USAID/Caucasus’
                  monitoring of AIHA’s USAID-funded activities was selected for
                  audit. The OIG performed this audit to answer the following
                  question:

                         Did the USAID Mission for the Caucasus monitor
                         American International Health Alliance’s performance to
                         ensure that intended results were achieved in Georgia?

                  The scope and methodology of this audit are detailed in Appendix I.




Audit Findings    Did the USAID Mission for the Caucasus monitor American
                  International Health Alliance’s performance to ensure that
                  intended results were achieved in Georgia?

                  We found that USAID/Caucasus was adequately monitoring AIHA’s
                  performance to ensure that intended results were achieved in
                  Georgia. However, USAID/Caucasus does need to strengthen
                  certain procedures regarding:

                         1. the approving of AIHA’s monitoring and evaluation plan,
                         2. assessing and planning future site visits, and
                         3. obtaining financial information from AIHA.

                  Nevertheless, USAID/Caucasus did review and approve health
                  partnership work plans and approved the designation of key positions
                  and key personnel. The Mission also concurred with all of the
                  underlying health partnerships and participated in AIHA’s health
                  clinic openings and conferences. In our opinion, this monitoring
                  helped to ensure that intended results were being achieved.

                  During the audit, OIG auditors made site visits throughout Georgia to
                  test activities at eight partnership locations associated with the
                  cooperative agreement between AIHA and USAID/Caucasus. While
                  on these site visits, we determined that sites and activities—including
                  primary health care clinics, the blood bank, infectious control center,

                                                                                 Page 5
health management education center and women’s wellness center
opened through AIHA and USAID/Caucasus cooperation— were in
existence, operating as reported, and staffed by enthusiastic, well-
trained Georgian health professionals. Moreover, several of the
clinic’s staff were trained to use modern equipment and diagnostic
treatments under this USAID sponsored activity. (see photographs 1
and 2 below and on page 7)

We found that the Mission’s monitoring of AIHA’s activities was
generally effective. USAID/Caucasus staff was well informed about
AIHA’s successes and challenges, had visited most sites, and had a
strong working relationship with the AIHA/Georgia staff.
Nevertheless, we identified certain monitoring and reporting
elements that could be strengthened. The following sections discuss
these issues in detail.



Photograph of an ultra sound machine renovated in Kutaisi women’s
wellness center. Georgian medical staff received training in the use
of this equipment in both the U.S. and Georgia.
(Photograph by RIG/Budapest – May 8, 2002)




Photograph 1 Ultrasound machine in renovated Kutaisi Women’s Wellness
Center. Georgian medical staff received training in the use of this
equipment in both the U.S. and Georgia.




                                                              Page 6
Photograph of apheresis machines that were inspected during
RIG/Budapest testing of inventory. These are highly specialized
machines used to separate platelets from other blood components
at the AIHA and USAID sponsored Tbilisi Blood Bank.




Photograph 2 These machines were inspected during RIG/Budapest testing
of inventory during our site visit. Apheresis machines are highly
specialized machines used to separate platelets from other blood
components at the AIHA and USAID sponsored Tbilisi Blood Bank.



USAID/Caucasus Needs to Obtain and Approve
AIHA’s Monitoring and Evaluation Plan

USAID planning guidance, ADS Section 201.3.4.13, states that
managing performance requires access to useful and timely
information. Currently, USAID/Caucasus receives a variety of
useful performance information from AIHA, information that we
believe is generally sufficient to properly manage the performance of
this activity. However, USAID/Caucasus has not yet received and
approved AIHA’s final monitoring and evaluation plan. (M & E
Plan) According to the cooperative agreement, AIHA’s M & E
Plans must be approved by USAID. Nevertheless, at this time—four
years into this activity—no formal approved M & E Plan exists.

Both USAID and AIHA officials asserted that the poor economic
conditions in Georgia led to emphasis being placed on getting the
activities “up and running” with trained staff, constant and safe
electric and water supplies, and needed equipment and supplies. (see
photograph 3.)

                                                               Page 7
This AIHA and USAID sponsored generator was an essential piece
of equipment for the Mtshketa primary health care center since the
city is frequently without electric power.




Photograph 3 This AIHA and USAID sponsored generator was an essential
piece of equipment for the Mtshketa primary health care center since the
city is frequently without electric power.


These actions took precedence over the development of a formal
M & E Plan. However, poor economic conditions and deprivation
are common in developing countries and make the success of
development activities—a success which is fostered by having a
thoughtfully designed M & E plan—all that more crucial. We
believe that the required plan was not developed and approved due to
a combination of three factors:

     1. USAID/Caucasus’ Office of Humanitarian Response (OHR)
        was shorthanded1;
     2. time was instead spent developing alternative monitoring
        procedures; and
     3. AIHA had continually reported that it was developing an
        M & E plan for submission.

As stated above, we believe the Mission is generally receiving much
of the information necessary to properly manage this activity.
However, in the absence of a final approved monitoring and
evaluation plan defining AIHA’s reporting requirements, AIHA is
not systematically reporting some performance information that
could benefit the Mission. For example, the Mission has recently

1.) It should be noted that the OHR has recently received permission to increase
its staff and has advertised a position for an assistant in the health component of
the OHR. This should help address the staffing issue mentioned above.

                                                                           Page 8
approved a “Georgia Health Action Plan” (GHAP) for its Office of
Humanitarian Response. We believe it would be extremely
beneficial to the Mission for AIHA to systematically track and report
on its progress against the goals, objectives and indicators contained
in that plan.

AIHA’s cooperative agreement—EE-A-00-98-00017-00—requires
that a monitoring and evaluation plan be approved by USAID.
Furthermore, both AIHA and USAID/Caucasus have expressed their
desire to develop and approve a monitoring and evaluation plan.
Nevertheless, although the agreement was signed on September 30,
1998, a final monitoring and evaluation plan has not been approved.
We are making the following recommendation to address this
situation.

        Recommendation No. 1: We recommend that
        USAID/Caucasus require that American International
        Health Alliance submit a monitoring and evaluation plan
        for Mission Concurrence, as soon as possible. This plan
        should incorporate agreed-upon performance measures.


USAID/Caucasus Needs to Assess, Plan, and Document
Future Performance Monitoring Site Visits

USAID guidance requires that Cognizant Technical Officers make
field site visits to Mission activities. USAID/Caucasus internal
guidance also recognizes the importance of site visits as an essential
monitoring tool. Moreover, both that internal guidance and U.S.
Government internal control standards require that important
events—such as site visits—be properly documented.

We found that, although some site visits had been made, Mission
officials indicated that they were unable to make timely and
appropriate oversight visits. Furthermore, we found that—even
when these visits were made—they were not adequately
documented. USAID/Caucasus staff stated that these conditions
occurred because of a lack of staff and the fact that a great deal of
time had been spent on other priorities. As a result, the Mission
faces greater risk to the success of its activities.

Both USAID guidance and USAID/Caucasus’ Mission Order for
performance monitoring acknowledge the importance of documented
site visits in the monitoring of USAID activities. For example,
USAID’s Automated Directives System (ADS) section E303.5.13
states that site visits are an important part of effective award


                                                                 Page 9
management. Similarly, ADS section 303.3.4.c indicates that the
responsibilities of the Cognizant Technical Officer include
monitoring and evaluating the recipient and the recipient’s
performance by maintaining contact through site visits. In addition,
USAID/Caucasus Mission Order No. 203 lists site visits as one of the
tools available to activity managers and further states that managers
are responsible for verifying reported data through independent
sources to the extent possible. Finally, this Mission Order
specifically requires that site visits (and other important
conversations, meetings, etc.) be documented by the manager to
record progress, status, problems, and successes.

We found that while USAID/Caucasus staff did visit sites, they did
not visit as often as they would have liked. According to Mission
officials, this situation occurred because a great deal of time was
invested in developing the Georgia Health Action Plan and in
focusing on several specific health initiatives—including
tuberculosis, human immunodeficiency virus, and women’s health
issues. In fact, the Mission’s fall portfolio review, conducted in
September 2001, noted that:

        [This] team has more programs than any other team
        and implements them with fewer staff. However,
        since its programs are nationwide and in individual
        communities, it was felt that the program
        management burden prevented staff from
        conducting timely and appropriate oversight visits.
        (emphasis added)

In the absence of timely and appropriate site visits, the Mission faces
greater risk to the success of its activities because it must rely on
development partners for more and more performance results
reporting with less ability to assess, verify and validate the accuracy
of that data. Moreover, the Mission also loses the opportunity to
better understand its partner’s performance and to revalidate
customer needs.

During the audit, we also noted that when site visits were made, they
were not appropriately documented. For example, while discussing
the future of the Women’s Wellness Center in Kutaisi,
USAID/Caucasus staff stated that they had accompanied Caucasus
partners and AIHA/Caucasus staff in the spring/summer of 2001 to
all operating partnership facilities. The stated purpose of these visits
was to try and determine which activity sites should be continued
under the recent cooperative agreement extension. We stated that
this was an important example of USAID/Caucasus monitoring and


                                                                Page 10
asked to see the trip reports resulting from this exercise. But no
documentation of these important site visits was available—which,
Mission officials indicated, resulted from their focusing on priorities
other than the summarizing of such visits.

It is important to note that extensive interviews of USAID/Caucasus
staff produced a wealth of knowledge about the actual functioning of
the clinics. However, without adequate documentation, if these
knowledgeable staff were to depart, important institutional
knowledge would leave with them.

Site visits are important, because they—among other things—
provide the opportunity to observe partner performance, validate
reported information, and determine whether USAID-financed
commodities and equipment are being used as intended. We
recognize that the Mission is faced with a daunting challenge: the
USAID/Caucasus-AIHA Cooperative Agreement is being
implemented in Georgia through five underlying partnership
agreements associated with numerous main and satellite facilities,
including a blood bank, a women’s wellness center, a primary care
health facility, a health management education center and an
infectious disease control facility. Moreover, sponsored facilities
exist throughout Georgia in Tbilisi, Mtskheta, Batumi, Telavi,
Kazbegi and Dusheti. Monitoring activities in these diverse settings
is a difficult logistical problem, especially with funding, staff and
other resource constraints.

In our opinion, given the constraints facing the Mission, an efficient
and effective way of programming field site visits would be to
conduct such visits based on the risks posed by each site’s activities.
In doing this, among other factors, the Mission would assess the risk
that it faces in both (1) the various elements of a development
partner’s performance (e.g., nature of activity, reporting, managing
of commodities, coordination with host country partners) and (2)
activity locations. Mission staff would then program a number of
field site visits, with the majority of those visits focusing on higher-
risk partners, functions and locations.

Without performing and documenting site visits, USAID/Caucasus
has to rely on development partners for more performance results
reporting with less ability to verify and validate the accuracy of the
data they report. In addition, the Mission loses the ability to better
understand the partner’s performance and the need to revalidate
expectations of important customer groups. Finally, without
formally documenting site visits, important matters may not be
available to USAID management; staff turnover can result in lost


                                                                Page 11
activity data such as status, problems, and refined goals.
Accordingly, we are making the following recommendation.

        Recommendation No. 2: We recommend that
        USAID/Caucasus develop a field site visit plan for
        its American International Health Alliance
        activities based on a risk assessment of its
        portfolio. In addition, any approved site visit plan
        should stipulate that a brief trip report recording
        the purpose and results of the trip be properly
        documented.


USAID/Caucasus Needs to Obtain Financial
Status Reports from AIHA

Monitoring the financial status of an activity is an important
Cognizant Technical Officer (CTO) function. In fact,
USAID/Caucasus’ Agreement Officer wrote AIHA’s CTO a
memorandum which stressed that the “[CTO] must continuously
monitor the financial status of the award….” However, AIHA is
paid for activities under this cooperative agreement through a Federal
Reserve Letter of Credit. Such payments to AIHA are processed by
the U.S. Department of Health and Human Services based on
Financial Status Reports submitted by AIHA. AIHA has not been
sending copies of these reports to the USAID/Caucasus-based CTO.

To address such situations, the Office of Procurement issued
Contract Information Bulletin 00-10, dated December 2000, which
dealt with financing through letters of credit. This Bulletin instructed
Contracting Officers to amend existing agreements by including the
following language:

        In accordance with 22 CFR 226.52, the SF 269 and
        SF 272 are required on a quarterly basis. The
        recipient shall submit these forms in the following
        manner:

        The SF 272 and SF 272a (if necessary) must be
        submitted via electronic format to the U.S.
        Department of Health and Human Services
        (http://www.dpm.psc.gov) within 45 days following
        the end of each quarter. A copy of this form shall
        also be submitted at the same time to the Cognizant
        Technical Officer.



                                                               Page 12
                        The SF 269 or SF 269a (as appropriate) must be submitted to
                        the Cognizant Technical Officer.

                 However, USAID/Caucasus never amended AIHA’s agreement to
                 require the submission of Financial Status Reports to the
                 USAID/Caucasus CTO. In our opinion, this lack of timely financial
                 information has made it more difficult for the CTO to properly
                 monitor the financial status of the agreement. Moreover, without the
                 consistent delivery of this report, USAID/Caucasus reports that it has
                 had difficulty reporting accurate accruals. Accordingly, we are
                 making the following recommendation.

                        Recommendation No. 3: We recommend that
                        USAID/Caucasus issue an administrative
                        modification to the American International Health
                        Alliance Cooperative Agreement requiring timely
                        and consistent submission of a copy of the
                        Standard Form 269a to USAID/Caucasus’
                        Cognizant Technical Officer.




Management       USAID/Caucasus officials agreed with the appropriateness of the
Comments and     findings and recommendations of this report and have taken the
Our Evaluation   final action necessary to address them. Their comments are
                 included verbatim as Appendix II of this report.




                                                                               Page 13
                                                                         Appendix I

Scope and     Scope
Methodology
              The Office of the Regional Inspector General/Budapest conducted an
              audit, in accordance with generally accepted government auditing
              standards, to determine if USAID Mission for the Caucasus
              (USAID/Caucasus) monitored American International Health
              Alliance’s (AIHA) performance in Georgia. Our audit was limited to
              evaluating USAID/Caucasus monitoring of AIHA’s performance in
              Georgia under cooperative agreement number EE-A-00-98-00017-00
              from September 30, 1998 through December 31, 2001. Our audit did
              not include an assessment of AIHA activities in Armenia and
              Azerbaijan. As of December 31, 2001, USAID/Caucasus obligated
              $6.3 million and expended $4.2 million in support for AIHA
              activities in Georgia. The audit was conducted at USAID/Caucasus
              and AIHA offices in Tbilisi, Georgia, and at eight AIHA partnership
              activity sites in Dusheti, Kutaisi (3), Mtskheta and Tbilisi (3),
              Georgia. Our fieldwork was performed from March 26, 2002
              through May 17, 2002.

              Methodology

              Specifically, the audit objective was to determine if
              USAID/Caucasus monitored AIHA’s performance to ensure that
              intended results were achieved in Georgia. To answer our audit
              objective we also examined the management/internal controls at
              USAID/Caucasus. To do this we reviewed:

                 1. USAID/Caucasus’ strategic planning, program
                    implementation and financial documents;
                 2. USAID/Caucasus’ guidance and internal control
                    assessments required under the Federal Managers’
                    Financial Integrity Act (FMFIA);
                 3. external evaluations and assessments of USAID/Caucasus’
                    program activities; and
                 4. progress and activity reports prepared by USAID/Caucasus
                    and AIHA officials.

              We also obtained and analyzed criteria applicable to this audit
              contained in:

                   1. ADS Chapters 200, 201, 202, and 203;
                   2. project implementation letters;
                   3. cooperative agreements EE-A-00-98-00033-00 and EE-A-


                                                                          Page 14
        00-98-00017-00, as amended;
     4. USAID/Caucasus Mission Orders; and
     5. other applicable guidance.

Finally, we interviewed key officials at USAID/Caucasus, AIHA,
and intended beneficiaries. We also conducted field trips to
selected activity sites in Georgia to observe project
implementation, inspect USAID–funded property and equipment,
verify reported information, and assess the effectiveness of
USAID/Caucasus and AIHA monitoring of performance and
progress towards accomplishment of program results and strategic
objectives. The eight AIHA Partnership activities visited were
selected judgmentally.




                                                         Page 15
                                                                                   Appendix II



Management
Comments


DATE:          November 22, 2002

TO:            Mr. Nathan Lokos, Director of Audit Operations
               RIG/Budapest

FROM:          Mr. Michael Farbman, Mission Director /s/



SUBJECT:       Audit of USAID/Caucasus’ Monitoring of American International Health
Alliance’s Performance in Georgia (Report No. B-123-02-00X-P)


USAID/Caucasus appreciates the comprehensive work done by the audit team. The
recommendations are appropriate. We are confident that the corrective action taken will
improve the results of this activity as well as provide useful guidance for improving the
monitoring of other programs currently being implemented.

• Response to Recommendation No. 1:
A USAID-approved monitoring and evaluation plan incorporating agreed-upon
performance measures and targets is now in place. AIHA submitted a revised Monitoring
and Evaluation Plan to USAID/Caucasus on October 19, 2002. After thorough review by
Strategic Objective Team 3.1, the Cognizant Technical Officer (CTO) for the AIHA
cooperative agreement provided provisional concurrence (letter dated November 15,
2002), pending receipt of detailed Indicator Reference Sheets and targets. Final
concurrence was provided by the CTO on November 22, 2002 after receipt of the
requested documents. Please consider the finding and recommendation closed.

A footnote on page 18 of the audit report notes that the Office of Humanitarian Response
had recently received permission to increase its staff. An additional FSN health specialist
was hired in August 2002. This is further helping the health section to better monitor
activities and to implement the quarterly monitoring schedule.

• Response to Recommendation No. 2:
A risk assessment has been completed for the AIHA partnerships. Based on this risk
assessment, which stipulates a higher frequency of monitoring for those partnerships
evaluated as having a higher risk, a monitoring schedule is now prepared for each quarter.
The schedule stipulates that a trip report must be filed to document each monitoring trip.

                                                                                   Page 16
This requirement for written monitoring reports implements USAID/Caucasus Mission
Order 203 (May 3, 2002), Managing for Results (Performance Monitoring), that requires
written documentation of monitoring trips.
Please consider the finding and recommendation closed.

• Response to Recommendation No. 3:
A modification (No. 9) was executed by the Agreement Officer on June 25, 2002, that
required the timely and consistent submission of SF-269a to USAID/Caucasus in
accordance with CIB 00-10. The Mission now receives SF-269a on a quarterly basis.
Please consider the finding and recommendation closed.

The Mission appreciates the cooperation and assistance provided by the auditors.




                                                                                   Page 17
